vl

IN THE SUPREME COURT OF THE UNITED STATES

No.
Veronica M. Johnson
Petitioner (Plaintiff-Appellant below), Pro se
v.
Rock Solid Janitorial, Inc.
Defendant, Appellee, jointly and severally
and
Selective Insurance Group, Inc.
Defendant, Appelle, jointly and severally
and
Selective Insurance Company of America
Defendant, Appellee jointly and severally
and
Selective Way Insurance Company
Defendant, Appellee, jointly and severally

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF VIRGINIA

PETITION FOR A WRIT OF CERTIORARI

Veronica M. Johnson
Petitioner, Pro se
166 Yorkshire Road
Portsmouth, Virginia 23701
(757) 465-0348

7

I. QUESTIONS PRESENTED

1.
Whether the second Judge who presided in Plaintiffs civil case violated the
Constitution by denying Plaintiffs demand for a jury trial, again, after the
Supreme Court of Virginia had reversed and remanded the Motion to Dismiss
granted by the first Judge?
Whether the second Judge in Plaintiffs civil case denied Plaintiff s jury trial
for an impermissible, unconstitutional motive?
2.

Whether the Court’s failure to conduct a de novo proceeding of Plaintiff s
appeal from General District Court to Circuit Court as required by statue violated
the Constitution?
3.

7

'

II. LIST OF PARTIES IN THIS CASE
Portsmouth Circuit Court Case No. CL16003713-01
Supreme Court of Virginia Record No. 190294
Veronica M. Johnson
Petitioner (Plaintiff-Appellant below), Pro se
v.
Rock Solid Janitorial, Inc.
Defendant, Appellee, jointly and severally
and
Selective Insurance Group, Inc.
Defendant, Appellee,
jointly and severally
and
Selective Insurance Company of America
Defendant, Appellee jointly and severally
and
Selective Way Insurance Company
Defendant, Appellee, jointly and severally

III. RELATED CASES
1.

Supreme Court of Virginia Record No. 171132,
Portsmouth Circuit Court Case No. CL16003713-00
(This was the “first appeal ” of this case),
Which was Defendants “first” Motion to Dismiss filed in this case
REVERSED AND REMANDED
Judgment entered February 28, 2018

Veronica M. Johnson
Petitioner (Plaintiff-Appellant below), Pro se
v.

Rock Solid Janitorial, Inc., et al
Defendant, Appellee, jointly and severally
2.

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1285
Veronica M. Johnson v. Douglas Ottinger
2:18 - cv-00625-AWA-RJK
ACTIVE/PENDING

3.

Portsmouth Circuit Court
CL1700-2039-00
Veronica M. Johnson, Plaintiff, pro se
Plaintiff
v.

Rock Solid Janitorial, Inc.
Defendant
ACTIVE (Verified Personal Injury Complaint)

IV. TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

10

CONCLUSION

12

V. INDEX OF APPENDICES

APPENDIX A. Decision of State Trial Court
Dated: December 31, 2018
APPENDIX B. Decision of State Supreme Court Denying Review
Dated: August 28,2019
APPENDIX C. Decision of State Supreme Court Denying Rehearing
Dated: February 14, 2020
APPENDIX D. Decision of State Supreme Court, Record No 171132. Reversing
and Remanding the State Court’s “firsf Dismissal Order in this case. This Petition
for Certiorari is for the State Court’s ‘second’ Dismissal Order in this case after the
Supreme Court Reversed and remanded the first one.
Dated February 28, 2018

APPENDIX E.
Decision of the General District Court, entered December 6, 2016 at the close of
the proceeding on December 6, 2016, Certified by the General District Court
Clerk, which Certified Order was appealed by Plaintiff to the Portsmouth Circuit
Court, December 6, 2016, and then Judge Ottinger went behind Petitioner’s back
and materially altered the Certified order he entered, with no notice or due process
after Petitioner had appealed it, and then, Judge Ottinger entered “two additional
supplemental rulings” in the form of case dispositions which contradicted each
other and contradicted his Certified order stating in the case dispositions he was
“notifying the Circuit Court..all in violation of Petitioners constitutional rights.
APPENDIX F. State Trial Court Order Entered August 7, 2018
Court acknowledges de novo proceeding due process right
APPENDIX G. State Trial Court Order Entered October 9, 2018
Court acknowledges that there are genuine issues in dispute
APPENDIX H. Plaintiffs UNREFUTED, SWORN, AMENDED WARRANT
IN DEBT, (with overwhelming evidentiary exhibits attached, that undisputably
demonstrate that Petitioner was entitled to the relief she sought Served: October
11,2016
APPENDIX I. Defendants Response to Plaintiffs AMENDED WARRANT IN
DEBT, November 2, 2016
APPENDIX J. Virginian Pilot Article, Fewer Cases Go To Juries, February 9,
2010

VI. TABLE OF AUTHORITIES
Cases:
The Court “may properly take judicial notice of matters of public record.”
Phillips v. Pitt. Cty. Mem. Hosp., 572 F. 3d 176, 180 (4th Cir.2009)

State statues:
VA. CODE§ 8.01-129. Appeal from judgment of general district court.
A. An appeal shall lie from the judgment of a general district court, in any
proceeding under this article, to the circuit court in the same manner and with like
effect and upon like security as appeals taken under the provisions of § 16.1-106 et
seq. except as specifically provided in this section. The appeal shall be taken
within 10 days and the security approved by the court from which the appeal is
taken. Notwithstanding the provisions of § 16.1-106 et seq., the bond shall be
posted and the writ tax paid within 10 days of the date of the judgment.
B. In any unlawful detainer case filed under § 8.01-126, if a judge grants the
plaintiff a judgment for possession of the premises, upon request of the plaintiff,
the judge shall further order that the writ of eviction issue immediately upon entry
of judgment for possession. In such case, the clerk shall deliver the writ of eviction
to the sheriff, who shall then, at least 72 hours prior to execution of such writ,
serve notice of intent to execute the writ, including the date and time of eviction, as
provided in § 8.01-470. In no case, however, shall the sheriff evict the defendant
from the dwelling unit prior to the expiration of the defendant's 10-day appeal
period. If the defendant perfects an appeal, the sheriff shall return the writ to the
clerk who issued it.
When the appeal is taken by the defendant, he shall be required to give security
also for all rent which has accrued and may accrue upon the premises, but for not
more than one year's rent, and also for all damages that have accrued or may
accrue from the unlawful use and occupation of the premises for a period not
exceeding three months. Trial by jury shall be had upon application of any
party.

VA CODE§ 16.1-106. Appeals from courts not of record in civil cases.
From any order entered or judgment rendered in a court not of record in a civil
case in which the matter in controversy is of greater value than $20, exclusive of
interest, any attorney fees contracted for in the instrument, and costs, or when the
case involves the constitutionality or validity of a statute of the Commonwealth, or
of an ordinance or bylaw of a municipal corporation, or of the enforcement of
rights and privileges conferred by the Virginia Freedom of Information Act (§ 2.23700 et seq.), or of a protective order pursuant to § 19.2-152.10, or of an action
filed by a condominium unit owners' association or unit owner pursuant to § 5579.80:2, or of an action filed by a property owners' association or lot owner
pursuant to § 55-513, there shall be an appeal of right, if taken within 10 days after
such order or judgment, to a court of record. Such appeal shall be to a court of
record having jurisdiction within the territory of the court from which the appeal is
taken and shall be heard de novo.
The court from which an appeal is sought may refuse to suspend the execution of a
judgment that refuses, grants, modifies, or dissolves an injunction in a case brought
pursuant to § 2.2-3713 of the Virginia Freedom of Information Act. A protective
order issued pursuant to § 19.2-152.10, including a protective order required by §
18.2-60.4, shall remain in effect upon petition for or the pendency of an appeal or
writ of error unless ordered suspended by the judge of a circuit court or so directed
in a writ of supersedeas by the Court of Appeals or the Supreme Court.
Supreme Court of Virginia Rule 5:17 (i)
What the Certificate Must Contain. The appellant shall include within the petition
for appeal a certificate stating: (1) the names of all appellants and appellees, the
name, Virginia State Bar number, mailing address, telephone number (including
any applicable extension), facsimile number (if any), and e-mail address (if any) of
counsel for each party, and the mailing address, telephone number (including any
applicable extension), facsimile number (if any), and e-mail address (if any) of any
party not represented by counsel; (2) that a copy of the petition for appeal has been
mailed or delivered on the date stated therein to all opposing counsel and all parties
not represented by

Other:

ARTICLE
Fewer civil cases go to juries due in large part to cost, By Janie Bryant The VirginianPilot | Feb 09, 2010| 12:00 AM
The Court “may properly take judicial notice of matters of public record.”
Phillips v. Pitt. Cty. Mem. Hosp., 572 F. 3d 176, 180 (4th Cir.2009)

OPINIONS BELOW

APPENDIX A. Decision of State Trial Court
Dated: December 31, 2018
APPENDIX B. Decision of State Supreme Court Denying Review
Dated: August 28, 2019
APPENDIX C. Decision of State Supreme Court Denying Rehearing
Dated: February 14, 2020

1

JURISDICTION

From the SUPREME COURT OF VIRGINIA

The date on which the highest state court decided my case was August 28, 2019
A copy of that decision appears at APPENDIX B

A timely petition for rehearing was thereafter denied on the following date:
February 14, 2020 and a copy of the Order denying rehearing appears at
APPENDIX C

The jurisdiction of this Court is invoked under 28 USC Section 1257 (a).

2

CONSTITUTONAL AND STATUTORY PROVISIONS INVOLVED
Seventh Amendment
“In suits at common law, where the value in controversy shall exceed
twenty dollars, the right of trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise reexamined in any court of the United States, than
according to the rules of the common law.”
Fourteenth Amendment:
“All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.”
:'v

STATEMENT OF THE CASE
Preface
The record in this case, Supreme Court of Virginia Record No. 171132,
(Reversed and Remanded)_and Record No. 190294 , together) contain clear and
convincing evidence of fraud committed on the court by Defendant’s Counsel, and
that the fraud perpetrated upon the Court by Defendant’s Counsel in its “second’
untimely Motion to Dismiss filed in this case prevented the State Court and the
Supreme Court of Virginia from reaching a fair decision, HOWEVER,, Petitioner
had demanded a jury trial which was supposed to prevent this, BUT, Judge Padrick
denied Petitioner a jury trial despite the fact that he admitted in his own Order of

3

October 9, 2018, APPENDIX G ,that there were “genuine issues of fact in
dispute.”
It was not until during and after the decision of the Supreme Court of
Virginia denying Petitioner’s rehearing in this case that it came to the attention of
this Petitioner that pervasive fraud had been committed by Defendant’s Counsel.
The Motion to Dismiss pleading that Defendant’s Counsel filed with the
Circuit Court was not a true copy of what was falsely Certified as having been sent
to this Petitioner.
Petitioners AMENDED WARRANT IN DEBT, filed October 11, 2016,
(which contains “all” Petitioners evidentiary exhibits attached which prove
Petitioner’s claim, APPENDIX H, was left out of the General District Court papers
transmitted to the Circuit Court Clerk’s Office (CL 16003713-00) and so was
Defendant’s Response, filed November 2, 2016, left out by the General District
Court Clerk’s Office.
Defendant’s counsels “second” Motion to Dismiss, subject of this Petition,
filed November 13, 2018, is a “fraudulent packet” apparently presented to “clean
up” what the General District Court Clerk left out of the file. Defendant’s counsel
left out the Notary Statement and all the evidentiary exhibits and the Certificate of

4

service pages on Petitioners AMENDED WARRANT IN DEBT that she tendered
as an exhibit in her “second’ Motion to Dismiss to the Court.

Plaintiff filed a sworn, legally sufficiently documented UNREFUTED
CLAIM that Defendants reneged on paying the remaining balance of a disclosed
$ 15,000.00 MED PAY Entitlement, (regardless of fault) after only paying the
Emergency Room Bill of $2,544.86 following a slip and fall accident that took
place in the Portsmouth Circuit Court hallway as Plaintiff slipped on an unseen
puddle of wax spilled on the floor by Defendant, Rock Solid Janitorial, Inc.,
propelling Plaintiff across the hallway floor like a human missile, crashing her
head against the concrete floor causing head contusion and a concussion and
knocking a filling out of a wisdom tooth, dislocating her jaw.. .and the injury list
gets worse. See APPENDIX H. Defendant’s counsel filed a response to
Petitioner’s AMENDED WARRANT IN DEBT 21 (twenty one) days after service.
The General District Court denied the relief sought in Petitioner’s
AMENDED WARRANT IN DEBT and_Plaintiff timely appealed to Circuit Court
demanding a jury trial pursuant to the 7th Amendment and VA. CODE 8.01-129,
alleging that Defendant committed Bad Faith Insurance Practice in contravention
of 38.2-510 (13) of the Insurance Code of the Commonwealth of Virginia:
5

“Failing to promptly settle claims where liability has become reasonably clear,
under one portion of the insurance policy coverage (MED PAY) in order to
influence settlements under other portions of the insurance policy coverage;”
(Personal injury damages claim for negligence). See UNREFUTED SWORN
AFFIDAVIT, Record page 172-228. CL1600-3713-00.
Defendant’s Counsel filed a “frivolous” untimely Motion to Dismiss,
claiming this Petitioner did not perfect her appeal from General District Court to
Circuit Court. Upon appeal by Petitioner, the Supreme Court of Virginia
REVERSED AND REMANDED. Record No 171132. See Appendix D.

After the case was remanded, the Judge who was reversed recused herself
upon Motion of this Petitioner.
Rather than proceeding to a jury trial upon remand, in compliance with
Petitioners Constitutional right, the “new” judge, Judge Padrick, dismissed
Petitioner’s case, for a second time, after he conducted a “covert” bench trial which
was masqueraded as a Motion to Dismiss hearing, granting a “second’’ untimely
Motion to dismiss, this time, based on a legally baseless claim of lack of standing
to sue when “all” argument in support of the Dismissal Order is rebutted by the law
of the case in Supreme Court of Virginia, Record No. 171132 which was reversed
and remanded. See APPENDIX A. Although Judge Padrick entered a ''second1'
Dismissal Order in this case, his own Order entered October 9, 2018, APPENDIX

6

G, Record page 194-197, clearly states that “there are genuine issues of fact in
dispute”

Also, Judge Padrick’s Dismissal Order, APPENDIX G, upon its face clearly
shows that this matter was not a de novo proceeding as required by statue, VA.
CODE 16.1 -106, constituting violation of 14 Amendment due process.

The Appeal Notice from General District Court, which listed all four
Defendants, was found proper by the Supreme Court of Virginia in Record No.
171132 and the Supreme Court of Virginia, specifically, took no issue with
Petitioner refusing to refile her Notice of Appeal as Judge Ottinger had tried to
force Petitioner to do and not list all four Defendants in the case as listed on the
Certified Order he entered at the close of the proceeding on December 6, 2016, as
required on the Appeal Notice.
The Notice of Appeal and the Certified Order Appealed listed who the party
defendants are and Defendant’s counsel filed no cross- appeal to obtain standing to
argue to the contrary if she chose to do so. The forgoing contradicts Judge
Padrick’s “finding” as to who the Defendant’s are in this case stated in his
Dismissal Order. APPENDIX A. See APPENDIX E. APPENDIX D.
APPENDIX H. and APPENDIX I

7

Defendant’s counsel committed fraud on the Court a “second “time with the
filing of it’s “second” untimely Motion to Dismiss in this case. Record pages 198251, CL16003713-01 , filed November 13, 2018. Defendant’s counsel, Kelley C.
Holland, submitted exhibits to the court to support a second Motion to Dismiss in
this case which she knew to be false. Kelley C. Holland supported her Motion to
Dismiss with Certified Orders entered by General district Court Judge on
December 6, 2016, that had been altered. See APPENDIX K. and compare these
Orders Certified by the General District Court at the close of the proceeding on
December 6, 2016, to the Orders that Judge Ottinger altered behind this
Petitioners back without due process, to favor defendant’s counsel, Kelley C.
Holland, after Petitioner had appealed the Certified Order, offered in support of
Defendant’s counsels “second” Motion to Dismiss, CL 16003713-01, Record
pages 198-251.

Defendant’s counsel, Kelley C. Holland, also submitted the Orders of Judge
Aundria Delores Foster to support her “second” Motion to Dismiss, when Judge
Foster was reversed by the Supreme Court of Virginia in Record No. 171132 and
recused upon remand on Motion of this Petitioner, willfully misleading the Court.

The General District Court certified order appealed by Petitioner, had the
General District Court certified seal removed from the Order as it appears in
8

Defendant’s Counsel, Kelley C. Holland, Motion to Dismiss filed November 13,
2018, Record pages 198-251, as in APPENDIX K ,and the General District Court
Certification replaced by a certification made upon the face of the order by
Portsmouth Circuit Court Deputy Clerk Yolanda Daughtry, CL 16003713-01, in
violation of due process. THIS IS A REALLY, REALLY SERIOUS MATTER.
MOTIVE is what IS important here, because motive is what makes the
STATE OF Petitioners case before this Court make sense. It’s simple. In this case,
when you are the third largest law firm in Virginia and a pro se senior citizen ex­
school teacher argues before the Supreme Court of Virginia in person in front of 60
plus lawyers and has you reversed, stands to reason that you are out to see to it that
it does not happen again, seemingly in this instance, “by any means necessary.”
The MOTIVE here appears clear.
For the Record, that “Preamble chant”, that Defendant’s counsel has placed
at the beginning of “all” her pleadings in this case and in the “Dismissal Order”
entered December 31, 2018, APPENDIX A. which reads ”.. .to the extent that
plaintiff Veronica M. Johnson(Johnson or Plaintiff) improperly identified Selective
Way Insurance Company as Selective Insurance Co. of America” is a strategic,
redundant ploy to have it appear that this pro se Plaintiff does not know what she is
doing. This “Preamble” was to further mislead the Court serving as a weapon of
“mass distraction” not founded in fact, repeatedly inflicted to harass, intimidate,
9

humiliate, and frustrate a pro se senior citizen Plaintiff, BUT, the law of the case in
Record No. 171132, pursuant to Supreme Court of Virginia Rule 5:17( i) as to
who the Party Defendants are shatters Defendant’s counsel’s ongoing
schenannigans.
“When you cannot win on the facts and you can’t win on the law.. .then
confuse the issue”.. .was that Truman?

The Supreme Court of Virginia in Record No. 171132 had no problem with
“WHO” the Defendants are in this case as procedural protocol required
certification upon the Notice of Appeal from the General District Court,
Certification by the Portsmouth Circuit Court Clerk, and Certification upon Appeal
to the Supreme Court of Virginia in Record No. 171132. Defendant’s counsel’s
strategy here is just another misleading procedural press in a game of
“ I can’t lose this “second” Motion to Dismiss.”

REASONS FOR GRANTING THE PETITION

The state Court’s decision in this case has so far departed from the accepted
and usual course of judicial proceedings, or sanctioned such a departure by a lower
Court, as to call for an exercise of this Court’s supervisory power.

10

Justice requires the exercise of this Court’s oversight authority in this case
for the protection of the public welfare because not reversing the state Court’s
decision here would have the effect of giving a free pass for “wholesale” public
corruption.
The Defendants and their Counsel are clearly the beneficiaries of fraud on
the Court in this case. To allow them to now profit from such fraud would only
encourage similar fraudulent behavior in the future and would clearly be contrary
to public policy, for, as Petitioner continues to suffer from her
injuries.. .uncompensated... others will suffer from their injuries
.. .uncompensated, as well... and the BIG and POWERFUL Insurance Companies
and their counsel will keep getting BIGGER and more POWERFUL, by engaging
in more fraud, at the expense of the public welfare.
Too, this SUPREME COURT OF THE UNITED STATES should grant this
Petition for Certiorari BECAUSE, to allow the state court decision appealed from
to stand sets a dangerous precedent for State Court’s being able to falsely invoke
the use of the term “ore tenus testimony" into a constitutionally, unjust Order as a
“kryptonite shied” to have the Order appear “Appeal Proof,” when the state
Court’s decision is unsupported by any evidence in the Record of any “ore tenus
testimony” in that there was no trial in this case.

ll

The Courts “findings” (when Petitioner demanded a jury trial), based upon
alleged “ore tenus testimony” in a Motion to Dismiss hearing is plainly wrong and
without any legal basis to support it when “ore tenus” refers to verbal or oral
statements and the practice of a presumption of correctness the appeals court gives
to the findings of fact reached by a “trial court” in a nonjury case. This was
supposed to be a Motion to Dismiss hearing but it was really a bench trial,
strategically procedurally concocted, to block Petitioner from the opportunity to
systematically present her evidence on the Record in a transcript, piece by piece, in
violation of defendant’s constitutional Rights.
This Virginia Pilot Article at APPENDIX K highlights the need for the
Court to hear this case.
"Our position here is the right to trial by jury is kind of the bedrock of not
only Virginia but the U.S. Constitution," said Jack Harris, director of the Virginia
Trial Lawyers Association. "If it just basically becomes an anachronism, I think
we've lost something."

CONCLUSION
TheTVbtiofi should be granted.

Veronica M. Johnson
Date

T7— 202-C^
12

